No. 20'869

TlnU,be

Supreme @ourt ottbe @nite! btuteg
Devrl E. HpNnv,
Petitioner
V.

Casrln Muprcal CnNtnn,
Respondent
On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5,
be served have been served

I certiS' that all parties required

to

with a copy of the Motion to Delay Distribution of

Petition for a Writ of Certiorari on the date written below by personal
delivery or by mail, postage prepaid, to the following persons, in accordance

with Supreme Court Rule 29.3.

bwt@torkildson.com
BRIAN W. TILKER, ESQ.
afm@torkildson.com
AUSTIN F. MCCULLOUGH, ESQ.
TorkildsonKatz Hetherington Harris & Knorek
700 Bishop Street, Suite 1500
Honolulu, Hawaii 96813
Telephone:( gog) 523-6000
Attorneys for Respondent
CASTLE MEDICAL CENTER
Executed on April

8,202I

DENNIS W. KING
JOHN WINNICKI
Attorneys for Petitioner

2

